January 27, 2009

JERRY D. LANE
VICE PRESIDENT, CAPITAL METRO AREA OPERATIONS

SUBJECT: Audit Report – Vehicle Maintenance Facilities –
         Scheduled Maintenance Service in the Capital Metro Area
         (Report Number DR-AR-09-003)

This report presents the results of our self-initiated audit of Vehicle Maintenance
Facilities (VMF) – Scheduled Maintenance Service in the Capital Metro Area (Project
Number 08XG004DR000). The overall objectives were to assess whether the Capital
Metro Area accomplished all required vehicle scheduled maintenance and whether they
integrated both VMFs and local commercial resources for optimum efficiency. See
Appendix A for additional information about this audit.

Conclusion

The Capital Metro Area completed nearly all required scheduled preventive
maintenance (SPM1) during fiscal year (FY) 2007 on their delivery vehicles. However,
management could further optimize VMF efficiency through more effective use of VMF
and local commercial resources. The Capital Metro Area could save an estimated
$17.9 million over 10 years by better optimizing its resources.

Scheduled Maintenance Performance

Capital Metro Area VMF units and local commercial vendors (LCVs) completed an
average of 95 percent of all SPMs during FY 2007. Four of the VMF units completed all
of their SPMs, and three VMF units completed between 93 and 97 percent of the
required SPMs. The other two VMF units we reviewed completed only 85 and
89 percent of the required SPMs because:

    •   There was a shortage of assigned maintenance technicians.

    •   Some vehicle status indicators were changed from “maintenance not performed”
        (also called “maintenance in arrears”) to “maintenance performed” by adjusting
        the SPM schedule.


1
 An SPM usually includes a preventive maintenance inspection and any repairs needed to maintain the vehicle or
meet safety and reliability standards.
Vehicle Maintenance Facilities – Scheduled                                DR-AR-09-003
 Maintenance Service in the Capital Metro Area


Without completing all required scheduled maintenance and repairs, Postal Service
vehicles are vulnerable to breakdowns, which could adversely impact timely mail
delivery and potentially impact the well-being of employees and the public. Since the
Postal Service does not plan to replace its current fleet of long life vehicles (vehicles
that are more than 20 years old) until 2018, we believe it is critical that these vehicles
timely receive SPM. See Appendix B for additional information about this issue.

We recommend the Vice President, Capital Metro Area Operations, direct district
managers to:

1. Assess vehicle maintenance technician positions at individual vehicle maintenance
   facilities to ensure sufficient staff is available for maintenance service.

2. Require vehicle maintenance facility officials to immediately conduct all maintenance
   in arrears and properly record vehicle status if maintenance was not conducted.

3. Discontinue the practice of adjusting the vehicle maintenance schedules when they
   have vehicles in arrears balances to eliminate situations where maintenance was not
   performed.

Optimum Use of Resources

The Capital Metro Area did not always optimize its resources to ensure management
spent maintenance and repair funds in the most efficient and cost effective manner.
Specifically, VMF officials often used LCVs for vehicle maintenance and repairs when
using VMF resources would have been more efficient and economical. Likewise, VMF
officials often used VMF resources when it would have been more efficient and
economical to use LCVs. Additionally, VMF officials used maintenance employees to
shuttle vehicles between facilities for maintenance and repairs when more economical
means existed. See Appendix C for additional information on the optimum use of
resources.

Although VMF units had a vehicle maintenance plan, the plan did not fully consider:

    •   The optimal combination of VMF resources and LCVs for performing scheduled
        maintenance and repairs.

    •   The cost effectiveness of using LCVs instead of VMF resources to shuttle
        vehicles between facilities for maintenance and repairs.

As a result, the Capital Metro Area expended more resources than necessary to
complete vehicle maintenance and repairs. By optimizing its resources, the Capital
Metro Area could reduce the operating costs of the nine VMFs reviewed by about
$950,368 annually, or approximately $17.9 million projected over 10 years for all
17 area VMFs. See Appendix D for our detailed analysis of the monetary impact.




                                                 2
Vehicle Maintenance Facilities – Scheduled                              DR-AR-09-003
 Maintenance Service in the Capital Metro Area


We recommend the Vice President, Capital Metro Area Operations, direct district
managers to:

4. Work with vehicle maintenance facility officials to:

    •   Maintain the most efficient combination of vehicle maintenance facility and
        commercial resources based on geographical location and costs.

    •   Make optimal use of the Postal Service’s national vehicle shuttle agreement or
        other local commercial shuttle services, when cost effective, for transporting
        vehicles to and from maintenance facilities.

Management’s Comments

Management agreed with our findings and recommendations and stated they have been
reviewing staffing at all VMFs within the area. Management has either increased or
decreased staff based on comparative analysis of like-sized facilities throughout the
country. Management will require each district reporting “maintenance in arrears” to
submit an action plan to the area Vehicle Maintenance Programs Analyst (VMPA) by
January 30, 2009. The plan should detail how and when they will become current on
their required scheduled maintenance. In addition, management will reissue the Postal
Service’s Vehicle Operations Guidelines for clearing out scheduled maintenance in
arrears to the districts. This will help ensure VMFs perform scheduled maintenance by
the end of each fiscal year. Further, management stated district and vehicle
maintenance managers will review their maintenance operations to determine the most
cost effective and efficient combination of in-house and contract maintenance. Based
on availability, cost, and relevant portions of Article 32 of the American Postal Workers
Union’s National Labor Agreement, the vehicle maintenance manager will determine
whether VMFs use the national vehicle shuttle contract or local shuttle services in lieu of
vehicle maintenance personnel. VMFs will submit these determinations to the area
VMPA no later than February 27, 2009, for approval and implementation.

Finally, management stated they could not commit to the actual dollar amount specified
in the audit report without having further quantitative data on how we derived the
projected savings. However, in subsequent discussions, management agreed in
principle with the potential monetary impact and capturing savings through improved
efficiencies as they implement the recommendations. We have included management’s
comments in their entirety in Appendix G.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should resolve the issues identified in the report.

The OIG considers recommendation 4 significant and, therefore, requires OIG



                                                 3
Vehicle Maintenance Facilities – Scheduled                                           DR-AR-09-003
 Maintenance Service in the Capital Metro Area


concurrence before closure. Consequently, the OIG requests written confirmation when
management has completed corrective actions. This recommendation should not be
closed in the follow-up tracking system until the OIG provides written confirmation that it
can be closed. We will report $17,951,396 of funds put to better use2 in our Semiannual
Report to Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, Director,
Delivery, or me at (703) 248-2100.

        E-Signed by Robert Batta
    VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Jordan M. Small
    Wayne W. Corey
    Katherine S. Banks




2
    Funds that could be used more efficiently by implementing recommended actions.


                                                          4
Vehicle Maintenance Facilities – Scheduled                              DR-AR-09-003
 Maintenance Service in the Capital Metro Area


                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service invested more than $3 billion in vehicle assets to transport and
deliver the mail. The vehicle inventory consists of 219,522 delivery, transport, and
administrative vehicles, of which delivery and collection vehicles (see the examples in
Figure 1) account for 195,211 (or about 89 percent) of the total fleet. The Postal
Service acquired the majority of these vehicles between 1987 and 1994 and planned to
maintain them for 24 years. About 7,700 of these vehicles purchased in 1987 are
approaching the end of their useful life. However, the Postal Service recently stated
that capital constraints now dictate that many of these vehicles must stay in service until
2018 – 7 years more than the planned lifespan.

                                           Figure 1
                     Delivery and Collection Vehicles in VMFs for SPM




                     Source: Postal Service

Management established 190 main and 131 auxiliary VMFs to maintain these assets in
a technically reliable, safe, clean, and neat condition for efficient mail transportation.
Vehicle maintenance includes selecting and training maintenance technicians; providing
garages, tools, and equipment; performing repairs; and monitoring and maintaining
preventive maintenance standards. The geographic location of VMFs and auxiliary
VMFs varies in each area as needed to support vehicle maintenance and reduce
transportation costs. Management established auxiliary VMFs for situations where
vehicle maintenance requirements exceed VMF resources or where shuttle time or
geographical distances warrant use of an auxiliary VMF.

Area officials are responsible for validating staffing requirements for vehicle related
positions and ensuring an adequate scheduled maintenance program. Vehicle
maintenance managers have overall responsibility for oversight of all maintenance and
repair services performed at VMF units, as well as any work contracted to commercial
vendors. Although the VMF manager has overall responsibility for vehicle maintenance,
vehicles are usually assigned to Vehicle Post Offices (VPOs). VPOs can be post
offices, branches, stations, associated offices, or other delivery and support facilities.
Officials at VPOs can also contract with LCVs for maintenance and repair services, but
they are required to document the repairs and obtain the VMF manager’s approval for
repairs and services costing more than $250.

                                                 5
Vehicle Maintenance Facilities – Scheduled                                   DR-AR-09-003
 Maintenance Service in the Capital Metro Area


The Postal Service developed Handbook PO-701, Fleet Management, to assist
operating personnel in maintaining the vehicle fleet in the most economical manner
possible. The handbook requires a maintenance plan that provides for regular
examination and service of Postal Service-owned vehicles. VMF managers must
prepare a vehicle maintenance plan designating where and when each vehicle will
receive scheduled maintenance. The handbook also emphasizes that preventive or
scheduled maintenance is preferable to reactive or unscheduled maintenance. See
Appendix F, "Scheduled Maintenance Process,” for a flowchart.

The Postal Service also established a Model VMF Performance Review program. The
review program is an integral part of VMF operations and a key tool for determining the
efficiency of a unit at a given time and identifying areas that need corrective action.
Districts must ensure VMFs perform self-reviews quarterly. A VMF must achieve a
score of 85 or more to be certified. The area must certify or recertify each unit at least
every 3 years.

The Postal Service uses the Vehicle Management Accounting System (VMAS) to code
and track costs. VMAS is a computer-based support system designed to collect,
process, store, present, and communicate vehicle maintenance data. The table below
shows VMF expenses, including commercial vendors’ expenses, for FY 2007.

                       Table 1. Maintenance Expenditures for FY 2007 by Area
                                            VMF and Commercial Expenditures
                                      Commercial          VMF
                Postal Service     Vendor Expenses Expenses in Total Expenses
              Area of Operation        in FY 2007       FY 2007        in FY 2007
              Southeast                   $13,867,484  $52,648,111       $66,515,595
              Great Lakes                  15,152,866   46,536,525        61,689,391
              Eastern                      12,213,149   45,085,152        57,298,301
              Western                      10,382,055   45,808,493        56,190,548
              Pacific                       9,105,547   42,819,217        51,924,764
              Northeast                    10,821,346   37,860,317        48,681,663
              New York Metro               12,433,942   36,814,803        49,248,745
              Southwest                     7,194,386   36,503,347        43,697,733
              Capital Metro                 7,643,667   32,808,458        40,452,125
              Total                       $98,814,442 $376,884,423      $475,698,865
             Source: Postal Service Category Management Center




                                                 6
Vehicle Maintenance Facilities – Scheduled                                               DR-AR-09-003
 Maintenance Service in the Capital Metro Area


OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this audit were to assess whether the Capital Metro Area
accomplished all required scheduled maintenance and whether they integrated both
VMFs and local commercial resources for optimum efficiency.

To accomplish the objectives, we randomly selected and reviewed vehicle service files
from nine3 of the 17 VMFs in the Capital Metro Area. We documented the scheduled
maintenance and the amount of SPM required and whether it was conducted in a timely
manner and reviewed work order files to document whether the SPM performed was
actual SPM, based on the time required for maintenance. We reviewed the Web-
Enabled Enterprise Information System (WebEIS) to analyze vehicles in “maintenance
in arrears” status and compared the number of SPMs completed to the actual
maintenance records. We also obtained data from Web Complement Information
System (WebCOINS) on the number of vehicle maintenance technicians and other data
from the Enterprise Data Warehouse (EDW) System.

We obtained a random sample of nine of the Capital Metro Area’s VMFs from all
districts and reviewed FY 2007 VMAS data for schedule maintenance services for the
selected VMFs. See Appendix E for more information. We identified the number of
Preventive Maintenance Inspections (PMIs)4 to be performed at each auxiliary VMF, the
VPOs where the vehicles were located, and the VPOs’ distance from the VMFs, and
documented the number of vehicle maintenance technicians assigned to each VMF.

We identified expenditures for each VMF’s and LCV's scheduled maintenance. In
discussions with VMF managers and reviews of maintenance records, we documented
the amount of SPM and number of SPM inspections required for each location on a
yearly basis. Using the VMAS vehicle work order history, we analyzed the average time
to perform an SPM for the nine VMF units reviewed in our sample.

We developed an optimization model using the above operational data to establish a
baseline, standards, key characteristics, shuttle usage, and cost. Using this data, we
established an optimum operating efficiency for each VMF. Based on the above
analyses, assumptions, and constraints, we estimated the Capital Metro Area could
increase overall VMF efficiency and we projected the cost savings for the Capital Metro
Area’s universe of 17 VMFs. See Appendix D, “Calculation of Cost Savings,” for the
model and assumptions we used to compute monetary benefits.

We conducted this performance audit from October 2007 through January 2009 in
accordance with generally accepted government auditing standards and included tests
of internal controls that we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our

3
  The random sample was reduced from ten to nine because we could not retrieve FY 2007 data from the VMAS for
the Xxxxxxxxxx VMF.
4
  A PMI is that portion of required scheduled maintenance a vehicle must receive to determine if mechanical and
safety systems are functioning properly.
                                                          7
Vehicle Maintenance Facilities – Scheduled                                    DR-AR-09-003
 Maintenance Service in the Capital Metro Area


findings and conclusions based on our audit objectives. We relied on data from VMAS
and WebEIS. We did not audit these systems, but performed a limited review of data
integrity to support our reliance on the data. We discussed our observations and
conclusions with management on October 30 and November 12, 2008, and included
their comments where appropriate.

PRIOR AUDIT COVERAGE

The OIG has issued nine reports related to our objectives in the last several years.

                                                                                   Monetary
            Report Title                 Report Number    Final Report Date         Impact
Vehicle Maintenance Facilities –        DR-AR-09-001     December 9, 2008          $14,817,650
Scheduled Maintenance Service in
the Northeast Area
Vehicle Maintenance Facilities –        DR-AR-08-011     September 30, 2008        $25,287,093
Scheduled Maintenance Service in
the New York Metro Area
Vehicle Maintenance Facilities –        DR-AR-08-010     September 30, 2008        $21,580,236
Scheduled Maintenance Service in
the Pacific Area
Vehicle Maintenance Facilities –        DR-AR-08-009     September 29, 2008        $28,224,843
Scheduled Maintenance Service in
the Great Lakes Area
Vehicle Maintenance Facilities –        DR-AR-08-008     September 29, 2008        $14,251,384
Scheduled Maintenance Service in
the Western Area
Vehicle Maintenance Facilities –        DR-AR-08-007     September 16, 2008        $27,620,773
Scheduled Maintenance Service in
the Southeast Area
Vehicle Maintenance Facilities –        DR-AR-08-006     August 14, 2008           $34,522,159
Scheduled Maintenance Service in
the Southwest Area
Maintenance and Repair Payments to      DR-MA-07-005     September 21, 2007          $1,571,517
Commercial Vendors Using Postal
Service Form 8230, Authorization for
Payment
Management of Delivery Vehicle          DR-AR-06-005     June 14, 2006             $22,796,487
Utilization


The previous 2008 audits, like this one of the Capital Metro Area, are part of a series of
audits on this topic. Similar to these prior audits, the Capital Metro Area did not
complete SPMs on all vehicles and did not always integrate both VMF and LCV
resources for optimum efficiency. Management agreed with our findings,
recommendations, and, in principle, with the monetary impact.

The 2007 audit concluded that using the Postal Service (PS) Form 8230, Authorization
for Payment, process to pay commercial vendors for maintenance and repair services
was not cost effective and did not include controls to reconcile payments and ensure
                                                 8
Vehicle Maintenance Facilities – Scheduled                            DR-AR-09-003
 Maintenance Service in the Capital Metro Area


repair costs were reasonable. Management agreed with our findings,
recommendations, and monetary impact.

The 2006 audit concluded that Postal Service officials made significant strides in
reducing costs associated with delivery vehicle expenditures over the previous 3 years.
However, delivery management officials could further improve the use of vehicles that
support delivery operations. Management agreed with our findings, recommendations,
and monetary impact.




                                                 9
Vehicle Maintenance Facilities – Scheduled                                                 DR-AR-09-003
 Maintenance Service in the Capital Metro Area


              APPENDIX B: SCHEDULED MAINTENANCE PERFORMANCE

The Capital Metro Area completed 95 percent of their required SPM during FY 2007.
Four VMF units completed all of their required SPM and three VMF units completed
between 93 and 97 percent of their required SPM. Additionally, two VMF units
completed only 85 and 89 percent of their required SPM. See Table 2.

                  Table 2. Scheduled Preventive Maintenance Performed in FY 2007
                                        Required                 Percentage
                       VMF Location    in FY 2007 Performed      Performed
                     Xxxxxxxxx              3,361       2,856              85
                     Xxxxxxxx, XX           1,731       1,613              93
                     Xxxxxxxx, XX           1,733       1,733             100
                     Xxxxxxxxxxxx           1,308       1,308             100
                     Xxxxxxxxxx             1,314       1,251              95
                     Xxxxxxx                   920         920            100
                     Xxxxxxx                2,316       2,316            100
                     Xxxxxxxx
                                            2,713       2,400              89
                     Xxxxxxxxxxxx
                     Xxxxxxx Xxxxx          1,010          983             97
                                               Not         Not
                     Xxxxxxxxxx                                           N/A
                                           Verified    Verified
                     Total/Average         16,406      15,380              95
                    Source: VMAS and OIG optimization model

Staffing Shortage. VMF officials stated they did not complete all of their required SPM
due to a shortage of assigned maintenance technicians. Officials determine their
technician staffing requirements based on either the “rule of thumb” or SPM-per-
technician ratio.5 Officials stated they used the ratio concept because the Postal
Service has not established a formal policy for staffing VMF maintenance technician
positions.

WebCOINS showed the Capital Metro Area with 70 full-time maintenance technician
vacancies. OIG’s Optimization model analysis showed a decrease of two maintenance
technicians was necessary for the first year savings. See Table 3.




5
 The “rule of thumb” ratio showed a need for 13 additional positions, while the SPM-per-technician scenario showed
an excess of 13 positions.
                                                         10
Vehicle Maintenance Facilities – Scheduled                                        DR-AR-09-003
 Maintenance Service in the Capital Metro Area

                                 Table 3. Estimated VMF Staffing Increase/Reduction
                                       Needs Based on OIG Optimization Model
                                                                             Staff Increase
                                                                              (Reduction)
                                                                                per OIG
                                                                             Optimization
                                                  Assigned Technicians       Model for the
                             VMF Location         Vehicles     Assigned        First Year
                         Charlotte                    1,393             28                 -1
                         Columbia, MD                   808              9                  0
                         Columbia, SC                   691             15                  0
                         Fayetteville                   631             11                  0
                         Greenville                     595             13                  0
                         Hampton                        390              7                  0
                         Norfolk                        961             30                 -1
                         Suburban Gaithersburg        1,232             20                  0
                         Winston Salem                  427             12                  0
                         Total                        7,128            145                 -2
                        Source: VMAS, VMF management, and OIG optimization model

“Maintenance in Arrears” and Schedule Adjustment. The Capital Metro Area VMFs
sometimes changed vehicle status from “maintenance not performed” (also called
“maintenance in arrears”) to “maintenance performed.” For example, one VMF had 335
vehicles reflected as “maintenance in arrears” on August 31, 2007, in WebEIS. The
location also had a consistent number of vehicles in arrears every month during FY
2007 (approximately 31 to 335 vehicles per month). However, on September 30, 2007,
this location had no vehicles in arrears recorded in WebEIS. VMF management could
not show whether the vehicles received the proper scheduled maintenance.6 Officials
stated that they adjusted the SPM schedule to prepare the annual maintenance plan for
the next fiscal year.

Without completing all required scheduled maintenance and repairs, Postal Service
vehicles are vulnerable to breakdowns, which may cause mail delays and service
problems. Further, performing the required SPM could decrease the number of vehicle
accidents, thereby lowering costs and preventing injury to employees and the public.
Since the Postal Service does not plan to begin replacing its current fleet of long life
vehicles (vehicles more than 20 years old) until 2018, we believe it is critical that these
vehicles receive the required maintenance.




6
    The “vehicle in arrears” status is a performance measure for VMFs.
                                                           11
Vehicle Maintenance Facilities – Scheduled                                               DR-AR-09-003
 Maintenance Service in the Capital Metro Area


                       APPENDIX C: OPTIMUM USE OF RESOURCES

The Capital Metro Area did not always optimize its resources to ensure it expended
maintenance and repair funds in the most efficient and cost effective manner.
Specifically, maintenance officials sometimes used LCVs for vehicle maintenance and
repairs when using VMF resources would have been more efficient and economical.
Likewise, management sometimes used VMF resources when it would have been more
efficient and economical to use LCVs. Additionally, VMF officials used maintenance
employees to shuttle vehicles from the VPO to the VMF when more economical means
existed.

Several factors contributed to these conditions.

    •   Optimum Use of VMF and Commercial Resources. The vehicle maintenance
        plan did not consider an optimum combination of both VMF and commercial
        resources.7 Generally, it is more cost effective8 for VMFs to perform SPM on
        vehicles stationed within 50 miles of the VPO. However, we concluded a LCV
        should perform SPM on vehicles when the VPO is more than 50 miles from the
        nearest VMF. We determined that 2,302 SPMs should have been performed at
        the other site – either the VMF or the commercial facility. See Table 4.

                        Table 4. VMF and Local Commercial Vendor Resources
                              FY 2007 SPMs                           Sites SPMs          Total SPMs That
                              Performed by                          Were Performed         Could Have
                                                                                           Been More
                                                                                            Optimally
                                                                                          Performed by
                                         Local        Total SPMs               Local      Either VMF or
        VMF Location        VMF         Vendors       Performed     VMF       Vendors     Local Vendors
     Charlotte                2,679           177         2,856       145          65                210
     Columbia, MD               568         1,045         1,613        12          12                 24
     Columbia, SC             1,259           474         1,733       438         113                551
     Fayetteville             1,019           289         1.308       324          11                335
     Greenville               1,145           106         1,251       143          73                216
     Hampton                    920             0           920        80           0                 80
     Norfolk                  2,279            74         2,316       668           0                668
     Suburban
                              2,197           203         2,400           0        48                   48
     Gaithersburg
     Winston Salem              983               0         983       170            0               170
     Total                   13,049         2,368        15,380     1,980         322              2,302
    Source: VMAS data and OIG optimization model




7
  VMAS does not track the number of SPMs accomplished. The OIG’s efficiency and optimization model estimated
the number completed by analyzing all work orders assigned to code 22 (scheduled maintenance) and, with some
adjustment, considered all work of at least 2 hours as an SPM.
8
  We base cost effectiveness on the overhead costs to transport vehicles between the VMF and the VPO using
vehicle maintenance technicians or other VMF personnel.
                                                          12
   Vehicle Maintenance Facilities – Scheduled                                                      DR-AR-09-003
    Maintenance Service in the Capital Metro Area


           •    Vehicle Shuttling. In most cases, we found that the Postal Service’s national
                vehicle shuttle agreement or local commercial shuttling services were more cost
                effective than using VMF maintenance technicians. The Capital Metro Area used
                about 14,357 workhours for vehicle maintenance technicians to shuttle vehicles
                rather than perform maintenance. The shuttle workhours related to SPMs were
                equivalent to eight vehicle maintenance technician positions at a cost of
                $617,925.9 See Table 5.

                             Table 5. Vehicle Maintenance Technician Hours Used for Shuttling
                      Number of      Estimated       Total       Percentage                                           Cost of
                       Vehicle       Scheduled      Shuttle       of Direct     Shuttle Hours      Equivalent      Shuttle Hours
                     Maintenance    Maintenance      Hours      Maintenance       Used for        Maintenance         Used by
                     Technicians       Hours        Used in     Hours Used       Scheduled         Technician      Maintenance
  VMF Location        Assigned       Available      FY 2007     for Shuttling   Maintenance         Positions       Technicians
 Charlotte                    28           39,290      7,337               19            4,428              2.52        $190,581
 Columbia, MD                  9           12,629      2,226               18              689               .39          29,655
 Columbia, SC                 15           21,048      3,607               17            1,195               .68          51,433
 Fayetteville                 11           15,435      2,705               18            1,232               .70          53,025
 Greenville                   13           18,242      3,735               20            1,959              1.12          84,315
 Hampton                       7            9,822      2,070               21            1,275               .73          54,876
 Norfolk                      30           42,096      2,872                7              950               .54          40,888
 Suburban
                              20           28,064      6,252               22            2,461              1.40         105,921
 Gaithersburg
 Winston Salem                12           16,838        420                2              168               .10           7,231
 Total/Averages              145          203,464     31,224               15           14,357              8.18        $617,925
Source: VMAS and OIG optimization model


   We found the Capital Metro Area VMF Managers and VMPA to be proactive in
   managing vehicle maintenance and receptive to the intent of our audit and
   recommendations. Management officials did express concern that:

           •    VMFs may not always find cost effective shuttle alternatives.

           •    The possibility of union concerns with using contractors instead of VMF
                personnel.

           •    The new policies restricting the ability to fill existing vacancies caused by attrition
                and a reduction or elimination of overtime could compromise the VMFs’ ability to
                capture cost savings.

           •    The Capital Metro Area faces unique challenges due to the large and diverse
                geographical area they cover.

   The OIG acknowledges the issues and concerns management raised and the
   challenges the Postal Service faces regarding VMF operations. Notwithstanding these
   concerns and challenges, in our opinion opportunities exist to become more efficient
   and save money. Specifically, the Capital Metro Area could lower overall operating

   9
    This estimate of equivalent technician positions applies only to the hours used for shuttling. It does not relate to any
   actual reductions in this report.
                                                             13
Vehicle Maintenance Facilities – Scheduled                           DR-AR-09-003
 Maintenance Service in the Capital Metro Area


costs for the nine VMFs reviewed by an average of $950,368 annually. These
efficiencies, when projected for the 17 VMFs in the Capital Metro Area, could save an
estimated $17.9 million over a 10-year period. See Appendix D for more information.




                                                 14
Vehicle Maintenance Facilities – Scheduled Maintenance                                    DR-AR-09-003
 Service in the Capital Metro Area




                   APPENDIX D: OIG CALCULATION OF COST SAVINGS

The OIG identified $17,951,396 in funds put to better use over the next 10 years for the
Capital Metro Area’s 17 VMFs.10

                                       Savings in Dollars
                                               Average     Estimated
                                               Annual     Savings Over
                          VMF Location         Savings      10 Years
                        Charlotte                 $37,067      $370,666
                        Columbia, MD              187,239     1,872,394
                        Columbia, SC              146,387     1,463,873
                        Fayetteville               81,254       812,540
                        Greenville                 22,298       222,975
                        Hampton                     3,682        36,821
                        Norfolk                   351,156     3,511,557
                        Suburban
                                                   57,952       579,523
                        Gaithersburg
                        Winston Salem              63,333       633,331
                        Totals                    950,368     9,503,680
                        Projected Potential Savings Over
                        17 VMFs in Capital Metro Area      $17,951,396
                       Source: OIG optimization model

We calculated the savings based on the following methodology and assumptions.

    •   Each VMF has a list of VPOs for which it is responsible for vehicle maintenance.
        Each VPO has a number of Postal Service vehicles that require regular SPM.
        Management determines the amount of SPM a vehicle requires at the beginning
        of the year based on the demands the assigned route places on the vehicle. All
        SPM for a given year must be performed on each vehicle; however, the VMF
        may delegate some of this workload to commercial vendors that are near the
        VPO. We refer to this contract labor as LCVs.

    •   The purpose of this audit was to determine the optimal use of the SPMs to be
        performed by the VMFs’ LCVs. We took into consideration the mechanics’ labor
        costs and all relevant shuttling costs. As with the SPMs, VMFs may contract out
        shuttling. The Postal Service has a national vehicle shuttle agreement and the
        OIG used that rate in the analysis. However, VMFs can use a less expensive
        local shuttle contractor if one can be identified.

10
   At a 95 percent confidence level, the OIG estimates the 10-year savings amount to range between $8.2 and
$27.7 million. We used the mid-point estimate of $17.9 million in our statistical projection.




                                                       15
Vehicle Maintenance Facilities – Scheduled Maintenance                                       DR-AR-09-003
 Service in the Capital Metro Area




     •   We developed the optimization model to find a least-cost solution based on
         performing all required SPMs. We used the VMFs’ FY 2007 operational data.
         Any SPMs not performed by VMFs were considered to be completed by LCVs.11
         We restricted the scope of this audit to maintenance technicians’ time spent
         performing scheduled maintenance and shuttling activities. This analysis draws
         no conclusions regarding the time dedicated to other activities or how
         maintenance technicians used the remainder of their time.

     •   We optimized the VMFs’ scheduled maintenance and shuttling time for the next
         10 years, assuming the Postal Service would reduce the labor contingent by 3.8
         percent per year, the historical Capital Metro Area attrition rate.12 This
         optimization gives the least-cost solution and specifies how the SPMs at each
         VPO should be distributed between the VMFs and the LCVs. The model shows
         which shuttling jobs both the VMFs and the contractors should do. The model
         analyzes all costs and hours (for SPMs at VMFs, SPMs at LCVs, VMF shuttling,
         and contract shuttling). The model also compares the total SPMs currently
         performed by VMFs and local vendors to the total amount that VMFs or LCVs
         could more optimally perform.

     •   In these optimizations, we assumed that each VMF would operate at a standard
         efficiency. We used the sampled nine VMFs’ average time per SPM as a
         standard for the time it takes to complete an SPM in that area. If a particular
         VMF performed better than this standard, we assumed the VMF maintained its
         current efficiency.

     •   VMAS does not track the number of SPMs accomplished for each vehicle. The
         OIG’s efficiency and optimization model estimated the number of SPMs
         completed by analyzing all work orders assigned to code 22 (scheduled
         maintenance) and, with adjustments (i.e., new vehicles and commercial repairs),
         considered all work lasting at least 2 hours13 as an SPM. We explained the
         process to the VMF managers and then confirmed/adjusted the number of SPMs
         required and completed.

     •   We identified cost savings if the VMF was not efficiently using its shuttling time.
         We compared the VMFs’ total shuttling time to the aggregate time that should be
         needed to perform all of the VMFs’ shuttling, assuming that two vehicles were
11
   We obtained the current number of SPMs performed by VMFs and LCVs from VMAS databases located at the
VMFs and transmitted to the xxxxxxxxx xxxxxxxx xx xxx xxxxx xxxxxxxxxxx xxxxxxxxxx xxx xxxxxxxxxx xxxxxxx
xxxxxx. Because a VMF may not perform all its required SPMs, we assumed LCVs would perform the remaining
SPMs. In addition, in some cases, a VMF performed more SPMs than required at a VPO. We credited the VMFs
with these additional SPMs and determined a comparable solution by reassigning these SPMs to the closest location
with a shortfall. We accomplished this, in part, by assuming the baseline case kept the scheduled maintenance hours
and shuttling hours constant at current levels.
12
   We determined the historical attrition rate for Capital Metro Area maintenance technicians by averaging the past 7
years’ (2001 - 2007) worth of data obtained from the WebEIS.
13
   We used 2 hours because of the Postal Service’s requirement for a “Type A” and “Type B” maintenance inspection
prior to any repair work. These inspections require between 1.5 and 2.5 hours.


                                                         16
Vehicle Maintenance Facilities – Scheduled Maintenance                                   DR-AR-09-003
 Service in the Capital Metro Area




           transported on each trip. The cost of any excess time was time that could have
           been saved, although the actual amount of time that could be saved was likely to
           be higher because the VMFs probably did not perform all of their own shuttling.

       •   For our model, we reviewed the minimum and maximum overtime hours per
           week from what the VMFs used during the first 6 months of FY 2008 determined
           from the EDW System. The number of hours of straight time each mechanic
           worked per year is 1,754.14

       •   Based on the above analyses and projections, we estimated the Capital Metro
           Area could reduce costs by using local commercial resources for shuttling and
           SPM requirements when appropriate. We projected over the Capital Metro
           Area’s universe of 17 VMFs, a reduction of costs of more than $17.9 million over
           a 10-year period. These savings include any reduction of vehicle maintenance
           technician positions through attrition over time.




14
     Source: Finance Memorandum dated March 6, 2006, “Workhour Rates for Fiscal Years 2005 - 2007.”


                                                       17
Vehicle Maintenance Facilities – Scheduled Maintenance                       DR-AR-09-003
 Service in the Capital Metro Area


                         APPENDIX E: SELECTED DISTRICTS AND
                           VEHICLE MAINTENANCE FACILITIES


                              District                              VMF
                     Mid-Carolinas                   Charlotte
                                                     Fayetteville

                     Baltimore                       Columbia

                     Greater South Carolina          Columbia
                                                     Greenville

                     Richmond                        Hampton
                                                     Norfolk

                     Capital                         Suburban Gaithersburg

                     Greensboro                      Winston Salem
                    Source: OIG Experts Sample




                                                   18
Vehicle Maintenance Facilities – Scheduled Maintenance                       DR-AR-09-003
 Service in the Capital Metro Area

                                                                               15
                   APPENDIX F: SCHEDULED MAINTENANCE PROCESS




15
     Source: Postal Service Handbook PO-701, Fleet Management, March 1991.


                                                      19
Vehicle Maintenance Facilities – Scheduled Maintenance     DR-AR-09-003
 Service in the Capital Metro Area


                       APPENDIX G: MANAGEMENT’S COMMENTS




                                                   20
Vehicle Maintenance Facilities – Scheduled Maintenance   DR-AR-09-003
 Service in the Capital Metro Area




                                                   21
